     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103



July 29, 2010


Report Number: A-09-09-00106

Mr. Toby Douglas
Chief Deputy Director of Health Care Programs
California Department of Health Care Services
1501 Capitol Avenue, Suite 71.6001, MS 0002
Sacramento, CA 95814

Dear Mr. Douglas:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Credit Balances at Rideout Memorial
Hospital as of July 31, 2009. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact Janet
Tursich, Audit Manager, at (206) 615-2063 or through email at Janet.Tursich@oig.hhs.gov.
Please refer to report number A-09-09-00106 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Toby Douglas


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




  REVIEW OF MEDICAID CREDIT
BALANCES AT RIDEOUT MEMORIAL
 HOSPITAL AS OF JULY 31, 2009




                       Daniel R. Levinson
                        Inspector General

                           July 2010
                         A-09-09-00106
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices

    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (the State agency) administers Medicaid.

The Federal Government pays its share of a State’s Medicaid payments based on the Federal
medical assistance percentage (FMAP), which varies depending on the State’s relative per capita
income. Pursuant to the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5,
States’ FMAPs are temporarily increased for Federal fiscal year (FY) 2009, FY 2010, and the
first quarter of FY 2011.

Credit balances may occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the program payment ceiling or allowable costs,
resulting in an overpayment. Credit balances may also occur when a provider receives payments
for the same services from the Medicaid program and another third-party payer. In such cases,
the provider should return the overpayment to the Medicaid program, which is the payer of last
resort.

Section 1903(d)(2)(C) of the Act, implemented at 42 CFR § 433.300(b), states: “… when an
overpayment is discovered … the State shall have a period of 60 days in which to recover or
attempt to recover such overpayment before adjustment is made in the Federal payment to such
State on account of such overpayment. ... [T]he adjustment in the Federal payment shall be made
at the end of the 60 days, whether or not recovery was made.”

The State agency does not have any regulations requiring providers to refund Medicaid credit
balances within a specific timeframe. However, State Medicaid cost report instructions state that
it is the provider’s responsibility to maintain an effective system to prevent, detect in a timely
fashion, and take proper corrective action for Medicaid overpayments. In addition, providers
must report outstanding credit balances as part of their annual cost report submissions and refund
any overpayments when the State agency settles the cost reports.

Rideout Memorial Hospital (Rideout) is an acute-care hospital located in Marysville, California.
Rideout reported that it was reimbursed by the State agency approximately $41.9 million for
Medicaid services for the FY ended June 30, 2009.




                                                i
OBJECTIVE

Our objective was to determine whether the Medicaid credit balances recorded in Rideout’s
accounting records as of July 31, 2009, for inpatient and outpatient services represented
overpayments that Rideout should have returned to the Medicaid program.

SUMMARY OF FINDING

As of July 31, 2009, Rideout’s Medicaid accounts with credit balances included 42
overpayments totaling $18,790 ($10,829 Federal share) that had not been returned to the
Medicaid program. The Federal share consists of $9,395 that we calculated using the regular
FMAP for FYs 2006 through 2009 and $1,434 in additional payments that we calculated using
the increased FMAP for FY 2009. The ages of the 42 overpayments ranged from 8 to 1,176
days.

Of the 42 Medicaid overpayments, Rideout did not return:

   •   24 overpayments totaling $7,723 ($4,049 Federal share) because Rideout did not follow
       its policies and procedures to prevent, detect in a timely fashion, and take proper
       corrective action for Medicaid overpayments;

    • 12 overpayments totaling $10,753 ($6,623 Federal share) because the overpayments
      occurred within 60 days before July 31, 2009; and

    • 6 overpayments totaling $314 ($157 Federal Share) because Rideout was waiting for the
      State agency to recoup the overpayments.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $10,829 (Federal share) in Medicaid overpayments to
       Rideout and

   •   work with Rideout to ensure that it follows its policies and procedures to prevent, detect
       in a timely fashion, and take proper corrective action for Medicaid overpayments.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency agreed with our recommendations. The
State agency’s comments are included in their entirety as the Appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Medicaid Program ..........................................................................................1
              Medicaid Credit Balances ..............................................................................1
              Federal and State Requirements.....................................................................1
              Rideout Memorial Hospital............................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................3

FINDING AND RECOMMENDATIONS .........................................................................3

          OUTSTANDING CREDIT BALANCE ACCOUNTS WITH MEDICAID
           OVERPAYMENTS ................................................................................................3

          RECOMMENDATIONS ...........................................................................................4

          STATE AGENCY COMMENTS ..............................................................................4

APPENDIX

          DEPARTMENT OF HEALTH CARE SERVICES COMMENTS
                                          INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (the State agency) administers Medicaid.

The Federal Government pays its share of a State’s Medicaid payments based on the Federal
medical assistance percentage (FMAP), which varies depending on the State’s relative per capita
income. Pursuant to the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5
(Recovery Act), States’ FMAPs are temporarily increased for Federal fiscal year (FY) 2009,
FY 2010, and the first quarter of FY 2011. The regular FMAP for California’s Medicaid
payments for FYs 2006 through 2009 was 50 percent. For FY 2009, the FMAP increased 11.59
percentage points to 61.59 percent because of the Recovery Act.

Medicaid Credit Balances

Credit balances may occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the program payment ceiling or allowable costs,
resulting in an overpayment. Credit balances may also occur when a provider receives payments
for the same services from the Medicaid program and another third-party payer. In such cases,
the provider should return the overpayment to the Medicaid program, which is the payer of last
resort.

Federal and State Requirements

Section 1903(d)(2)(C) of the Act, implemented at 42 CFR § 433.300(b), states: “… when an
overpayment is discovered … the State shall have a period of 60 days in which to recover or
attempt to recover such overpayment before adjustment is made in the Federal payment to such
State on account of such overpayment. ... [T]he adjustment in the Federal payment shall be made
at the end of the 60 days, whether or not recovery was made.”

The State agency does not have any regulations requiring providers to refund Medicaid credit
balances within a specific timeframe. However, State Medicaid cost report instructions state that
it is the provider’s responsibility to maintain an effective system to prevent, detect in a timely
fashion, and take proper corrective action for Medicaid overpayments. In addition, providers
must report outstanding credit balances as part of their annual cost report submissions and refund
any overpayments when the State agency settles the cost reports.



                                                1
Providers must submit their annual Medicaid cost reports within 150 days after the end of the
provider fiscal year. Pursuant to section 14170(a)(1) of the California Welfare and Institutions
Code, the State agency has 3 years after the provider’s fiscal year or the date of the submission,
whichever is later, to audit or review the cost report.

Rideout Memorial Hospital

Rideout Memorial Hospital (Rideout) is an acute-care hospital located in Marysville, California.
Rideout reported that it was reimbursed by the State agency approximately $41.9 million for
Medicaid services for the FY ended June 30, 2009.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid credit balances recorded in Rideout’s
accounting records as of July 31, 2009, for inpatient and outpatient services represented
overpayments that Rideout should have returned to the Medicaid program.

Scope

Rideout’s inpatient and outpatient accounting records contained 219 Medicaid accounts with
credit balances totaling $245,649 as of July 31, 2009. We reviewed 137 accounts with credit
balances of $100 or more, totaling $241,261. Of these accounts, 30 accounts included 37
overpayments due to the Medicaid program: 24 accounts contained 1 overpayment, 5 accounts
contained 2 overpayments, and 1 account contained 3 overpayments.

We also reviewed 19 accounts from the June 30, 2009, credit balance report with credit balances
of $100 or more, totaling $13,560, which were not included in Rideout’s July 31, 2009, credit
balance report. We examined these accounts to determine whether they represented
overpayments due to the Medicaid program as of July 31, 2009. Of these accounts, five
included overpayments due to the Medicaid program.

Our objective did not require an understanding or assessment of the complete internal control
system at Rideout. We limited our review of internal controls to obtaining an understanding of
the policies and procedures that Rideout used to review credit balances and report overpayments
to the State Medicaid program.

We performed our fieldwork at Rideout’s business office in Marysville, California, from
August 2009 to May 2010.




                                                 2
Methodology

To accomplish our objective, we:

   •   reviewed Federal and State requirements pertaining to Medicaid credit balances and
       overpayments;

   •   reviewed Rideout’s policies and procedures for reviewing credit balances and reporting
       overpayments to the State agency;

   •   traced a judgmental sample of 10 credit balances from Rideout’s July 31, 2009, credit
       balance report to the trial balance;

   •   identified Rideout’s Medicaid credit balances from its accounting records and reconciled
       these credit balances to Rideout’s Medicaid credit balance reports as of June 30 and
       July 31, 2009;

   •   reviewed Rideout’s accounting records for accounts with credit balances of $100 or
       more, including patient payment data, Medicaid claim forms and remittance advices,
       patient accounts receivable detail, and additional supporting documentation;

   •   calculated the Federal share of overpayments by applying the regular FMAP of
       50 percent for FYs 2006 through 2009 and the additional FMAP of 11.59 percent for
       FY 2009; and

   •   coordinated our audit with State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

As of July 31, 2009, Rideout’s Medicaid accounts with credit balances included 42
overpayments totaling $18,790 ($10,829 Federal share) that had not been returned to the
Medicaid program.

OUTSTANDING CREDIT BALANCE ACCOUNTS WITH MEDICAID
OVERPAYMENTS

As of July 31, 2009, Rideout’s Medicaid accounts with credit balances included 42
overpayments totaling $18,790 ($10,829 Federal share) that had not been returned to the
Medicaid program. The Federal share consists of $9,395 that we calculated using the regular
FMAP of 50 percent for FYs 2006 through 2009 and $1,434 in additional payments that we



                                                3
calculated using the additional FMAP of 11.59 percent for FY 2009. The ages of the 42
overpayments ranged from 8 to 1,176 days, as the following table summarizes.

                              Ages of Overpayments as of July 31, 2009

                                     Number of              Overpayment               Federal
                Days                Overpayments              Amount                   Share
                1–60                     12                     $10,753                  $6,623
                61–180                   4                          669                     412
                181–365                  13                       1,091                     656
                366–588                   7                       5,963                   2,981
                1,122                     1                          87                      43
                1,176                     5                         227                     114
                Total                    42                     $18,790                 $10,829

Of the 42 Medicaid overpayments, Rideout did not return:

     • 24 overpayments totaling $7,723 ($4,049 Federal share) because Rideout did not follow
       its policies and procedures to prevent, detect in a timely fashion, and take proper
       corrective action for Medicaid overpayments;

     • 12 overpayments totaling $10,753 ($6,623 Federal share) because the overpayments
       occurred within 60 days before July 31, 2009; and

     • 6 overpayments totaling $314 ($157 Federal Share) because Rideout was waiting for the
       State agency to recoup the overpayments. 1

RECOMMENDATIONS

We recommend that the State agency:

    •   refund to the Federal Government $10,829 (Federal share) in Medicaid overpayments to
        Rideout and

    •   work with Rideout to ensure that it follows its policies and procedures to prevent, detect
        in a timely fashion, and take proper corrective action for Medicaid overpayments.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency agreed with our recommendations. The
State agency’s comments are included in their entirety as the Appendix.


1
 One overpayment was 1,122 days old, and five overpayments, all for the same patient, were 1,176 days old.
Rideout has submitted refund requests for all six of these overpayments.


                                                        4
APPENDIX
                                                   Page 1 of3
APPENDIX: DEPARTMENT OF HEALTH CARE SERVICES COMMENTS 

---_._----                         - . ~ . -- ---- .----           --­


                                State of California-Health and Human Services Agency
   ~HCS
                                Department of Health Care Services

  'I'
  DAVID MAXWEll.JOLlY
        Director


          JUL 0 1 2010
                                                                                                          ARNOLD SCHWARZENEGGER
                                                                                                                 Govemor




         Ms. Lori A Ahlstrand
         Regional Inspector General for Audit Services
         Office of Inspector General
         90 7 th Street, Suite 3-650
         San Francisco, CA 94103

          Dear Ms. Ahlstrand:

          The California Department of Health Care Services (DHCS) has prepared its response
          to the U.S. Department of Health and Human Services, Office of Inspector General
          (OIG), draft report entitled "Review of California Medicaid Credit Balances at Rideout
          Memorial Hospital as of July 31 , 2009" (A-09-09-001 06), DHCS appreciates the work
          performed by the OIG and the opportunity to respond to the draft report.

         'Please contact Ms. Traci Walter, Audit Coordinator, at (916) 650-0298 if you have any
          questions .

          Sincerely,

          Original Signed By

          Toby Douglas
          Chief Deputy Director
          Health Care Programs

          cc:      See next page




                        1501 Capitol Avenue, Suite 71.6001, MS 0002 ' P .O. 9974 13' Sacramento, CA 95899-7413
                                                 (916) 440-7400' (916) 440-7404 FAX
                                                  Internet address: www.dhcs.ca.gov
                                                           Page 2 of3

                          - - - - - - - - - - - - ---   - - - --




     Ms. Lori A. Ahlstrand
     Page 2

     JUl 0 1 1010

     cc: 	   Ms. Karen Johnson
             Chief Deputy Director
             Policy and Program Support
             1501 Capitol Avenue, MS 0005
             P.O. Box 997413
             Sacramento, CA 95899-7413

             Mr. Robert O'Neill
             Deputy Director
             Audits and Investigations Division
             1500 Capitol Avenue, MS 2000
             P.O. Box 997413
             Sacramento, CA 95899-7413

             Mr. Bill Alameda, Chief
             Financial Audits Branch
             Audits and Investigations Division
             1500 Capitol Avenue, MS 2100
             P.O. Box 9974 13
             Sacramento, CA 95899-7413




I




l
                                                                                             Page 3 of3




                           Department of Health Care Services 

            Res ponse to the Offic e of Inspector General's Draft Repo rt Entitled 


                          Review of Medicaid Credit Balances at 

                       Rideout Memorial Hospital as of July 31, 2009 



Recommendation :      We recommend that the State agency refund to the Federal Government
                      $10,829 (Federal share) in Medicaid overpayments to Rideout.

Response:             The Department of Health Care Services (OHCS) agrees with the
                      recommendation.

                      Documentation provided by the Office of Inspector General (OIG)
                      indicates that as of May 12, 2010, Rideout Memorial Hospital had
                      returned $16,305 (S9,360 Federal share) for 16 of the 42 identified credit
                      balances and had initiated refunds for the remaining 26 cred it balances
                      totaling $2,485 ($1 ,469 Federal share). DHCS' Audit Review and
                      Analysis Section will review the documentation provided by the OIG and
                      will work with Rideout to rei50lve i!lny remaining credit balanc;ei5.

Recommendation:       We recommend that the State agency work with Rideout to ensure that it
                      follows its policies and procedures to prevent, detect in a timely fashion,
                      and take proper corrective action for Medicaid overpayments.

Response:             The Department of Health Care Services (DHCS) agrees with the
                      recommendation.

                      DHCS' Financial Audits Branch (FAB) conducts annual Medi~Cal cost
                      report audits of all acute care facilities. These audits include steps to
                      review for credit balances. The audits of future cost reports for Rideout
                      Memorial Hospital will include steps to review for cred it balances. FAB
                      will wori< with Rideout during these audits to ensure that policies and
                      procedures are being followed. The next audit of Rideout Memorial
                      Hospital is scheduled for August 201 O.




                                               1
